Audit Report




OIG-14-003
RESTORE ACT: Gulf Coast Ecosystem Restoration Council Faces
Challenges in Completing Initial Comprehensive Plan
October 25, 2013




Office of
Inspector General
Department of the Treasury
Contents

Audit Report.................................................................................. 1

   Background ............................................................................................ …. 2

       The RESTORE Act .................................................................................. 2

       Initial Comprehensive Plan……………………………………………………….. ...... 4

       Objective, Scope, and Methodology .......................................................... 5

   Initial Comprehensive Plan Was Not Published by the Mandated Deadline and Did
   Not Include All RESTORE Act Requirements ................................................... 6

       Mandated Deadline Missed....................................................................... 6

       All RESTORE Act Requirements Not Included ............................................. 7

   Recommendations ....................................................................................... 9

Appendices

   Appendix 1:         Management Response ......................................................... 12
   Appendix 2:         Major Contributors to This Report ........................................... 14
   Appendix 3:         Report Distribution ................................................................ 15

Abbreviations

   NEPA        National Environmental Policy Act
   NOAA        National Oceanic and Atmospheric Administration
   RESTORE Act Resources and Ecosystems Sustainability, Tourist Opportunities,
               and Revived Economies of the Gulf Coast States Act of 2012
   U.S.C.      United States Code




                       Gulf Coast Ecosystem Restoration Council Faces Challenges in Completing           Page i
                       Initial Comprehensive Plan (OIG-14-003)
         This Page Intentionally Left Blank.




Gulf Coast Ecosystem Restoration Council Faces Challenges in Completing   Page ii
Initial Comprehensive Plan (OIG-14-003)
                                                                                           Audit
OIG
The Department of the Treasury
                                                                                           Report
Office of Inspector General




                        October 25, 2013

                        The Honorable Penny Pritzker
                        Chairperson, Gulf Coast Ecosystem Restoration Council

                        This report presents the results of our audit work related to the
                        Gulf Coast Ecosystem Restoration Council’s (Council)
                        establishment of the Initial Comprehensive Plan as required by the
                        Resources and Ecosystems Sustainability, Tourist Opportunities,
                        and Revived Economies of the Gulf Coast States Act of 2012
                        (RESTORE Act).1 Our objective was to determine and assess the
                        progress made toward establishing the Initial Comprehensive Plan
                        by its mandated deadline of July 6, 2013. This audit was
                        performed under authorities provided for in Section 1608 of the
                        RESTORE Act. Specifically, the Department of the Treasury
                        (Treasury) Office of Inspector General is provided the authority to
                        conduct, supervise, and coordinate audits and investigations of
                        projects, programs, and activities funded under the act.

                        In brief, we found that while the Council made notable progress
                        towards establishing the Initial Comprehensive Plan, the Council did
                        not publish the plan in the Federal Register by the mandated
                        deadline. In addition, when the Initial Comprehensive Plan is
                        published, it will not include all the elements required by the
                        RESTORE Act. Instead, the Council plans to include all required
                        elements in future versions of the Comprehensive Plan. We
                        acknowledge the necessity for the Council to move cautiously in
                        establishing the Initial Comprehensive Plan due to the
                        (1) uncertainty of the amount that will eventually be deposited into
                        the Gulf Coast Restoration Trust Fund (Trust Fund), (2) complexity
                        of developing a plan of this scope, (3) multiple stakeholders
                        involved in the process, and (4) coordination required with other
                        Gulf Coast region assessment and restoration efforts. That said,

1
    Public Law 112-141, 126 Stat. 588-607 (July 6, 2012)

                        Gulf Coast Ecosystem Restoration Council Faces Challenges in Completing   Page 1
                        Initial Comprehensive Plan (OIG-14-003)
                       we are recommending that the Chairperson of the Council establish
                       timelines for the next steps to be taken as soon as practicable and
                       continue to work with Council members towards developing the
                       Comprehensive Plan to include all elements required by the
                       RESTORE Act.

                       In a written response, the Council provided a summary of actions
                       taken and planned that meet the intent of our two
                       recommendations presented in this report. The Council also stated
                       that although it aimed to meet the statutory guideline, it believed it
                       was critical to provide opportunities for meaningful public input into
                       the plan from the people who live and work in the Gulf Coast
                       region. As a result of the Council’s decision to extend the public
                       comment deadline and ensure that comments were adequately
                       considered, the Council was delayed by a few weeks in completing
                       the Comprehensive Plan. The Council’s response is included as
                       appendix 1.

Background
                       The RESTORE Act

                       The RESTORE Act established the Trust Fund within Treasury to
                       provide funds for the environmental and economic restoration of
                       the Gulf Coast region2 in response to the 2010 Deepwater Horizon
                       oil spill. Deposits into the Trust Fund will be comprised of
                       80 percent of all civil and administrative penalties paid after
                       July 6, 2012, pursuant to a court order or negotiated settlement
                       under the Federal Water Pollution Control Act.3 While the total
                       amount that will eventually be deposited into the Trust Fund is
                       unknown at this time, the Trust Fund received a deposit of




2
  As defined in the RESTORE Act, the term Gulf Coast region means (a) in the Gulf Coast States
(Alabama, Florida, Louisiana, Mississippi, and Texas), the coastal zones that border the Gulf of Mexico;
(b) any adjacent land, water, and watersheds that are within 25 miles of the coastal zones of the Gulf
Coast States; and (c) all federal waters in the Gulf of Mexico.
3
  Public Law 92-500 (as amended)

                       Gulf Coast Ecosystem Restoration Council Faces Challenges in Completing     Page 2
                       Initial Comprehensive Plan (OIG-14-003)
                       approximately $323 million as a result of a settlement with the
                       Transocean defendants.4

                       The RESTORE Act allocates the money from the Trust Fund into
                       five components: (1) Direct, (2) Council-selected Restoration,
                       (3) Spill Impact, (4) Centers of Excellence Research Grants
                       Program, and (5) Gulf Coast Ecosystem Restoration Science,
                       Observation, Monitoring, and Technology Program (Science
                       Program). Treasury is responsible for administering the Direct
                       Component and the Centers of Excellence Research Grants
                       Program Component. The Council is responsible for administering
                       the Council-selected Restoration Component and the Spill Impact
                       Component. The National Oceanic and Atmospheric Administration
                       (NOAA) is responsible for administering the Science Program
                       Component.

                       The RESTORE Act also established the Council, a new independent
                       entity within the federal government, comprised of the governors
                       from the five affected Gulf Coast States; the Secretaries from the
                       U.S. Departments of the Interior, Commerce, and Agriculture; the
                       head of the department housing the Coast Guard (currently the
                       Secretary of the Department of Homeland Security); the Secretary
                       of the Army; and the Administrator of the U.S. Environmental
                       Protection Agency. Following a recommendation from the Gulf
                       Coast States, the President appointed the Secretary of Commerce
                       as the Chair of the Council in September 2012. To accomplish its
                       statutory requirements in the absence of funding, the Council
                       established a transition staff comprised of non-reimbursable
                       detailees from States and federal agencies. As of the end of our
                       fieldwork, the Council Staff was administratively housed within the
                       Department of Commerce. Its staffing included an Executive

4
  On January 3, 2013, the Department of Justice lodged a proposed consent decree with the
Transocean defendants (Transocean Deepwater Inc., Transocean Offshore Deepwater Drilling Inc.,
Transocean Holdings LLC, and Triton Asset Leasing GmbH) in the U.S. District Court, Eastern District of
Louisiana. Under the proposed decree, among other things, the Transocean defendants will pay a
$1 billion civil penalty plus interest. The civil settlement was approved on February 19, 2013, and the
first installment of approximately $323 million was deposited into the Trust Fund in March 2013. It
should be noted that pursuant to 2 U.S.C. §906(k)(6), the Balanced Budget and Emergency Deficit
Control Act, as amended, budgetary authority in trust funds is temporarily reduced for the fiscal year
ending September 30, 2013. This sequestration reduced the amount available in the Trust Fund by 5.1
percent, to approximately $307 million. The sequestered amount is not available for obligation during
the fiscal year it is sequestered, but remains in the Trust Fund and is available in subsequent years.

                       Gulf Coast Ecosystem Restoration Council Faces Challenges in Completing   Page 3
                       Initial Comprehensive Plan (OIG-14-003)
                      Director, Chief Financial Officer, Special Counsel, Comprehensive
                      Plan Manager, and Director of Environmental Compliance.5

                      Initial Comprehensive Plan

                      The RESTORE Act required the Council to publish a proposed Initial
                      Comprehensive Plan for the environmental and economic
                      restoration of the Gulf Coast region no later than January 2, 2013.
                      The Council published a proposed plan, The Path Forward to
                      Restoring the Gulf Coast, on January 29, 2013.

                      The Council was also required to publish an Initial Comprehensive
                      Plan no later than July 6, 2013, 1 year after the RESTORE Act was
                      signed into law. The act states that the Comprehensive Plan shall
                      include the provisions necessary to incorporate the strategy,
                      projects, and programs recommended by the President’s Gulf Coast
                      Restoration Task Force.6 The act also requires that the
                      Comprehensive Plan include: (1) a list of projects or programs
                      authorized prior to July 6, 2012, that have not yet commenced,
                      the completion of which would further the purposes and goals of
                      the act; (2) a description of the manner in which amounts from the
                      Trust Fund projected to be made available to the Council for the
                      succeeding 10 years will be allocated; and (3) subject to available
                      funding, a prioritized list of specific projects and programs to be
                      funded and carried out during the 3-year period immediately
                      following the date of publication of the Initial Comprehensive Plan
                      (hereafter referred to as the Funded Priorities List).

                      The Council established a project plan to develop the
                      Comprehensive Plan, which included milestones for: (1) developing
                      the Draft Initial Comprehensive Plan, (2) facilitating discussions and
                      working group meetings with subject matter experts from Council
                      Member States and agencies, (3) facilitating discussions with


5
  As of September 2013, three Council staff members’ details have expired and the Council is planning
for future staffing.
6
  The President established the Gulf Coast Restoration Task Force on October 5, 2010, through
Executive Order 13554. The Task Force was charged with development of a restoration strategy that
proposes a Gulf Coast ecosystem restoration agenda. The Task Force released the Gulf of Mexico
Regional Ecosystem Restoration Strategy for the long term ecosystem restoration for the Gulf Coast on
December 5, 2011. As a result of Executive Order 13626, the Gulf Coast Restoration Task Force was
disbanded on September 10, 2012.

                      Gulf Coast Ecosystem Restoration Council Faces Challenges in Completing   Page 4
                      Initial Comprehensive Plan (OIG-14-003)
                       Council’s Executive Team Members7 on key components of the
                       Plan, (3) holding public comment periods and “Public Listening
                       Sessions”,8 and (4) holding a Council Executive Team meeting to
                       discuss public comments. In addition, the Council detailed a
                       Comprehensive Plan Manager from the Mississippi Department of
                       Environmental Quality in March 2013 to coordinate with each
                       Council Member and oversee the process of establishing the Plan.

                       Objective, Scope, and Methodology

                       Our objective was to determine and assess the Council’s progress
                       toward establishing the Initial Comprehensive Plan by the mandated
                       deadline of July 6, 2013. In performing our audit work, we
                       reviewed: (1) the RESTORE Act, (2) the Gulf of Mexico Regional
                       Ecosystem Restoration Strategy published by the Gulf Coast
                       Ecosystem Restoration Task Force (Dec. 2011), (3) America’s Gulf
                       Coast: A Long Term Recovery Plan after the Deepwater Horizon Oil
                       Spill published by the Secretary of the Navy (Sept. 2010), (4) The
                       Path Forward to Restoring the Gulf Coast: A Proposed
                       Comprehensive Plan published by the Council (Jan. 2013), (5) the
                       Council Comprehensive Plan Team’s9 reference documentation and
                       project milestones, (6) the Draft Initial Comprehensive Plan:
                       Restoring the Gulf Coast’s Ecosystem and Economy (hereinafter
                       referred to as Draft Initial Comprehensive Plan) along with
                       Appendix A: Background Information - Preliminary List of
                       Authorized but Not Yet Commenced Projects and Programs (May
                       2013), (7) the Draft Programmatic Environmental Assessment (May
                       2013), and (8) a sample of comments received by the Council
                       during the formal public comment period for the Draft Initial
                       Comprehensive Plan (June 2013). We interviewed Council
                       personnel involved in developing the Initial Comprehensive Plan,

7
  The Council’s Executive Team consists of the Council Members’ designees and alternates. For Federal
agency members, the designees are at the level of the Assistant Secretary or the equivalent. In the case
of the Gulf Coast States, the Governor may designate an alternate to represent the Governor on the
Council.
8
  From December 2012 to March 2013, the Council conducted Public Listening Sessions in all of the
Gulf Coast States to gather early input into the development of the Initial Comprehensive Plan. The
Council held a second round of Public Listening Sessions in the five Gulf Coast States in June 2013.
9
  The Comprehensive Plan Team consists of the Comprehensive Plan Manager and two Senior Policy
Advisors. The core team members were on detail from NOAA and the Department of Agriculture.
Additionally, Council members’ technical staff comprised a Comprehensive Plan working group that was
available to support the development of the Initial Comprehensive Plan.

                       Gulf Coast Ecosystem Restoration Council Faces Challenges in Completing    Page 5
                       Initial Comprehensive Plan (OIG-14-003)
             including the Senior Advisor for Gulf Coast Restoration and the
             Comprehensive Plan Manager. We performed our fieldwork from
             April 2013 through June 2013.

             We conducted this performance audit in accordance with generally
             accepted government auditing standards. Those standards require
             that we plan and perform the audit to obtain sufficient, appropriate
             evidence to provide a reasonable basis for our findings and
             conclusions based on our audit objectives. We believe that the
             evidence obtained provides a reasonable basis for our findings and
             conclusions based on our audit objectives.

Initial Comprehensive Plan Was Not Published by the Mandated
Deadline and Did Not Include All RESTORE Act Requirements

             Mandated Deadline Missed

             The Council made notable progress towards establishing an Initial
             Comprehensive Plan; however, a final Initial Comprehensive Plan
             was not published by the mandated date of July 6, 2013. On
             May 23, 2013, the Council published the Draft Initial
             Comprehensive Plan and accompanying Draft Programmatic
             Environmental Assessment in the Federal Register for a 30-day
             public comment period, which ended on June 24, 2013. The
             Council had intended to meet the mandated date by publishing the
             Initial Comprehensive Plan by July 6, 2013; however, the Council
             received multiple requests for an extension of the public comment
             period. To provide for public input into the Plan, the Council
             extended the public comment period by 2 weeks, to July 8, 2013.
             Council officials stated that over 41,000 comments were received
             by the end of the extended public comment period.

             When we asked Council officials about the progress made towards
             developing the Initial Comprehensive Plan, they stated that they
             were making their best efforts to meet the 1-year timeframe in the
             RESTORE Act, while simultaneously standing up the Council as a
             new independent federal entity. They noted that, even in
             established federal agencies, plans of this nature and complexity
             typically require several years to develop. Accordingly, the Council
             is looking at the development and implementation of the


             Gulf Coast Ecosystem Restoration Council Faces Challenges in Completing   Page 6
             Initial Comprehensive Plan (OIG-14-003)
                      Comprehensive Plan as more of an iterative process. According to
                      officials, at the time of our audit, the Council was working to
                      review the comments provided to it during the comment period in a
                      prompt yet thorough manner and expected to publish a final Initial
                      Comprehensive Plan as soon as practicable. On August 28, 2013,
                      subsequent to the completion of our audit fieldwork, the Council
                      approved and issued the final Initial Comprehensive Plan.

                      All RESTORE Act Requirements Not Included

                      The level of detail in the Draft Initial Comprehensive Plan did not
                      fully comply with the requirements in the RESTORE Act.
                      Specifically, the Draft Initial Comprehensive Plan did not include a
                      10-Year Funding Strategy or a Funded Priorities List.

                      The Draft Initial Comprehensive Plan stated that the Council did not
                      include the first two required items for the following reasons:
                      (1) uncertainty of the overall amount and availability of funds to
                      eventually be deposited in the Trust Fund; (2) lack of Treasury
                      regulations to guide Trust Fund expenditures;10 (3) the RESTORE
                      Act’s requirement to solicit public input on the Plan; and (4) the
                      need to allow the Gulf Coast States to develop State Expenditure
                      Plans to guide the disbursement of funds to the States.

                      The Draft Initial Comprehensive Plan did include, as background
                      information, a preliminary list of authorized but not yet commenced
                      projects and programs as required by the RESTORE Act. This
                      preliminary list is intended to serve as a reference of potential
                      projects and, according to the draft, does not represent a list of
                      projects and programs that the Council will prioritize or necessarily
                      fund. The Draft Initial Comprehensive Plan also included goals,
                      objectives, and evaluation criteria to guide the Council’s ecosystem
                      restoration funding decisions. Furthermore, the Draft Initial
                      Comprehensive Plan set out the Council’s next steps, which are to
                      (1) refine objectives and evaluation criteria; (2) establish advisory
                      committees as determined necessary; (3) develop regulations

10
  As discussed in our report Restore Act: Treasury Missed Its Statutory Deadline for Establishing
Procedures Governing RESTORE Act Programs and Activities, OIG-13-038 (Apr. 17, 2013), Treasury
missed its statutory deadline of January 2, 2013, to establish procedures governing RESTORE Act
programs and activities. On September 6, 2013, Treasury published the draft procedures in the Federal
Register, in the form of proposed regulations, for a 60-day public comment period.

                      Gulf Coast Ecosystem Restoration Council Faces Challenges in Completing   Page 7
                      Initial Comprehensive Plan (OIG-14-003)
                        establishing the oil spill restoration impact allocation formula;
                        (4) release a schedule for the submittal of proposals from Council
                        members; (5) select and publish a Funded Priorities List; and
                        (6) adopt a 10-Year Funding Strategy. Council officials told us that
                        a timeline for these next steps has not been established, as the
                        timeline is dependent on several factors, including the finalization
                        of the Treasury regulations governing RESTORE Act programs and
                        activities, the funding available to certain projects from other
                        sources,11 and the outcome of ongoing litigation.12

                        The challenges faced by the Council to publish a more complete
                        Comprehensive Plan, given the above unknown factors, are
                        formidable. We were told that the Council considered and had
                        discussions about developing the Funded Priorities List based on
                        known available funding, but decided against it because the
                        Council is cautious about funding projects that may be part of
                        litigation or funded by other sources. As current litigation
                        progresses, the Council expects to gain a better understanding of
                        future funding in order for it to develop a more realistic Funded
                        Priorities List. Additionally, the Council intends to update the
                        Comprehensive Plan incrementally as current uncertainties become
                        informed. That said, in addition to other factors,13 a complete
                        Comprehensive Plan that meets all RESTORE Act requirements is

11
   Restoration projects in the Gulf Coast region may also receive funding through other sources such as
the National Fish and Wildlife Foundation and the Natural Resource Damage Assessment process.
12
   On December 15, 2010, the U.S. Department of Justice filed a civil and criminal suit against BP
Exploration and Production Inc.; Anadarko Exploration & Production LP and Anadarko Petroleum
Corporation (known collectively as “Anadarko Defendants”); MOEX Offshore 2007 LLC; Triton Asset
Leasing GMBH, Transocean Holdings LLC, Transocean Offshore Deepwater Drilling Inc., and Transocean
Deepwater Inc. (known collectively as “Transocean Defendants”) for violations under the Clean Water
Act in the U.S. District Court for the Eastern District of Louisiana. The first phase of the trial against BP
Exploration and Production Inc. began in February 2013 and the second phase of the trial began
September 30, 2013. Additional phases will extend into 2014.
13
   Prior to disbursing funds for the Council-selected Restoration Component and the Spill Impact
Component, Treasury will need to establish the procedures for governing RESTORE Act programs and
activities and the Council will need to establish its National Environmental Policy Act (NEPA)
procedures. As a new independent federal entity, the Council will also have to develop necessary
administrative and financial infrastructure prior to entering into interagency agreements and grants to
distribute the Trust Fund money it oversees. In addition, federal agencies must comply with applicable
environmental laws, including NEPA before making final decisions about federal actions that could have
environmental effects. NEPA and its implementing regulations establish an environmental review and
assessment process in which agencies must consider the potential environmental impacts of their
proposed actions, including, among others, impacts on social, cultural, and economic resources, as well
as natural resources.

                        Gulf Coast Ecosystem Restoration Council Faces Challenges in Completing        Page 8
                        Initial Comprehensive Plan (OIG-14-003)
essential so funds can be disbursed from the Trust Fund to
recipients under the Council-selected Restoration Component and
Spill Impact Component.

Recommendations
We recommend that the Chairperson of the Council:

1. Ensure that timelines are established as soon as practicable for
   the next steps listed in the Draft Initial Comprehensive Plan to
   include (a) refining objectives and evaluation criteria;
   (b) establishing advisory committees as determined necessary;
   (c) developing regulations establishing the oil spill restoration
   impact allocation formula; (d) releasing a schedule for the
   submittal of proposals from Council members; (e) selecting and
   publishing a Funded Priorities List; and (f) adopting a 10-Year
   Funding Strategy.

    Council Response

    After reviewing and considering over 41,000 public comments,
    the “Next Steps” section was revised and released in the final
    version of the Initial Comprehensive Plan. While some of the
    steps noted above are still reflected in the plan, others such as
    “refining objectives and evaluation criteria” have already been
    revised, based on the public comments received. The Council is
    establishing timelines for the next steps identified in the plan
    and hopes to make target deadlines publicly available by early
    2014. Additionally, the Council intends to publish a Funded
    Priorities List and select projects and/or programs within the
    next year.

    OIG Comment

    The Council’s actions taken and planned meet the intent of our
    recommendation.

2. Continue to work with Council members towards developing a
   Comprehensive Plan to include all items required by the
   RESTORE Act, including a 10-year funding strategy and a
   Funded Priorities List, and establish procedures to ensure annual


Gulf Coast Ecosystem Restoration Council Faces Challenges in Completing   Page 9
Initial Comprehensive Plan (OIG-14-003)
    updates to the Funded Priorities List are completed on time.

    Council Response

    The Council approved the Initial Comprehensive Plan on
    August 28, 2013, but deferred including the 10-year funding
    strategy and Funded Priorities List in this iteration of the plan
    for several reasons. First, there is uncertainty related to the
    overall amount and availability of funds deposited in the Trust
    Fund. Second, the final procedures to guide Trust Fund
    expenditures have not been issued by Treasury. Additionally,
    the Gulf Coast States are in the process of developing State
    Expenditure Plans to guide the disbursement of funds that will
    be allocated to the States, based upon the extent of impacts
    from the Deepwater Horizon oil spill.

    The Council intends to publish a Funded Priorities List and select
    projects and/or programs within the next year. The Council will
    publish the draft list for public review and comment before
    finalizing the list and incorporating it into the Comprehensive
    Plan. Once there is more certainty regarding ongoing litigation,
    the Council will also publish a draft 10-year funding strategy as
    an addendum to the plan. Over the next few years,
    development and implementation of the plan will be an iterative
    process leading to a comprehensive, region-wide,
    multi-objective restoration plan based on the best available
    science.

    OIG Comment

    The Council’s planned actions meet the intent of our
    recommendation.




Gulf Coast Ecosystem Restoration Council Faces Challenges in Completing   Page 10
Initial Comprehensive Plan (OIG-14-003)
                                  ******

We appreciate the courtesies and cooperation extended by your
staff as we inquired about these matters. Major contributors to this
report are listed in appendix 2. A distribution list for this report is
provided as appendix 3. If you have any questions, you may
contact me at (202) 622-1090 or Marla A. Freedman, Assistant
Inspector General for Audit, at (202) 927-5400.


/s/
Eric M. Thorson
Inspector General




Gulf Coast Ecosystem Restoration Council Faces Challenges in Completing   Page 11
Initial Comprehensive Plan (OIG-14-003)
Appendix 1
Management Response




Gulf Coast Ecosystem Restoration Council Faces Challenges in Completing   Page 12
Initial Comprehensive Plan (OIG-14-003)
Appendix 1
Management Response




Gulf Coast Ecosystem Restoration Council Faces Challenges in Completing   Page 13
Initial Comprehensive Plan (OIG-14-003)
Appendix 2
Major Contributors to This Report




Deborah L. Harker, Audit Director
Eileen J. Kao, Audit Manager
Marco T. Uribe, Auditor-in-Charge
Eleanor P. Kang, Program Analyst
John B. Gauthier, Referencer
Kevin A. Guishard, Referencer




Gulf Coast Ecosystem Restoration Council Faces Challenges in Completing   Page 14
Initial Comprehensive Plan (OIG-14-003)
Appendix 3
Report Distribution




Gulf Coast Ecosystem Restoration Council

     Chairperson
     Department of Agriculture Council Designee
     Department of the Army Council Designee
     Environmental Protection Agency Council Designee
     Department of Homeland Security Council Designee
     Department of the Interior Council Designee
     State of Alabama Council Designee
     State of Florida Council Designee
     State of Louisiana Council Designee
     State of Mississippi Council Designee
     State of Texas Council Designee
     Executive Director

 Department of the Treasury

    Under Secretary for Domestic Finance
    Fiscal Assistant Secretary
    Deputy Assistant Secretary, Fiscal Operations and Policy
    Office of Strategic Planning and Performance Management
    Office of the Deputy Chief Financial Officer, Risk and Control
           Group

 Office of Management and Budget

    OIG Budget Examiner




Gulf Coast Ecosystem Restoration Council Faces Challenges in Completing   Page 15
Initial Comprehensive Plan (OIG-14-003)
